 DEPARTMENT OF HOMELAND SECURITY

    Office of Inspector General



    Audit of the National Urban Search
     and Rescue Response System




             Office of Audits

OIG-06-54                        August 2006
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                        August 8, 2006


                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report assesses the status of response preparedness achieved by the National Urban Search and
Rescue Response System as a result of increased levels of funding made available for the System in
a post-September 11, 2001, environment. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this report
will result in more effective, efficient, and economical operations. We express our appreciation to all
of those who contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Inspector General
Table of Contents/Abbreviations

Executive Summary ............................................................................................................................... 1

Background ........................................................................................................................................... 2

Results of Audit ..................................................................................................................................... 3

     Attainment of US&R System Objectives and Standards................................................................. 3
        US&R System Oversight, Funding, and Staffing ...................................................................... 5
          Oversight of Task Force Preparedness ................................................................................... 6
          US&R System and Task Force Funding Needs...................................................................... 7
          US&R System Staffing ........................................................................................................... 9
     Reasons for Task Forces Not Achieving Objectives or Standards ................................................ 10
     Conclusions.................................................................................................................................... 11
     Recommendations.......................................................................................................................... 12
     Management Comments and OIG Analysis .................................................................................. 13

Appendices
     Appendix A:              Objective, Scope, and Methodology. .................................................................. 14
     Appendix B:              National Urban Search and Rescue Response System task forces...................... 15
     Appendix C:              Management’s Response to the Draft Report...................................................... 16
     Appendix D:              Major Contributors to this Report ....................................................................... 19
     Appendix E:              Report Distribution.............................................................................................. 20


Abbreviations
     DHS                    Department of Homeland Security
     EP&R                   Emergency Preparedness and Response Directorate
     FEMA                   Federal Emergency Management Agency
     FRP                    Federal Response Plan
     FY                     Fiscal year
     OIG                    Office of Inspector General
     US&R                   National Urban Search and Rescue Response System
     WMD                    Weapons of Mass Destruction
                                                                                  Audit
OIG                                                                               Report
Department of Homeland Security
Office of Inspector General

Executive Summary
                The National Urban Search and Rescue Response System (US&R System) is
                a rapidly deployable federal source for first response to nationwide
                emergencies, including Weapons of Mass Destruction (WMD) events. The
                Federal Emergency Management Agency (FEMA), a component of the
                Department of Homeland Security (DHS), is responsible for administering the
                US&R System. After September 11, 2001, Congress provided substantial
                increases to US&R System funding. Federal preparedness funding for the
                US&R System reached a high of $65 million in fiscal year (FY) 2004, or
                about 550 percent higher than FY 2001, but fell to $30 million in FY 2005.
                The objective of this audit was to determine to what extent DHS had achieved
                the US&R System's preparedness goals and to identify opportunities for
                improvement in US&R task force preparedness.
                While the US&R System has made improvements, especially in WMD
                training and equipment preparedness, the task forces are falling short in
                achieving System objectives and standards in three primary areas of readiness:
                operational, logistical, and management. Systemic deficiencies existed for
                many of the operational and logistical readiness objectives.
                Due to funding shortages and staffing constraints, FEMA did not monitor the
                task forces' compliance with grant agreement requirements or their
                achievement of US&R System objectives and standards for optimal task force
                response preparedness. FEMA also awarded equal grant amounts to each task
                force without evaluating individual task force readiness or financial needs and
                did not clearly define program goals.
                The task forces did not achieve System objectives and standards because of
                delays in their hiring of full–time staff to administer day-to-day activities,
                budget constraints, and System management staff shortages. FEMA was
                unable to provide sufficient program analysis and oversight because staff
                levels never grew commensurate with the increased program funding and risk
                after FY 2001. Also, four hurricanes in the summer of 2004 and Hurricanes
                Katrina, Wilma, and Rita in 2005 further exacerbated the lack of management
                oversight by diverting staff to emergency response functions.
                We recommended that FEMA take steps to improve the administration,
                funding, and oversight of the federally funded task forces. The
                recommendations remain unresolved pending receipt of a specific corrective
                action plan.


                  Audit of the National Urban Search and Rescue Response System

                                             Page 1
Background

             In 1990, FEMA created the National US&R Response System to have a
             national rescue capability that would provide lifesaving resources to victims
             entrapped in collapsed reinforced concrete structures. In cooperation with
             other federal, state, and local agencies, FEMA achieved this national
             capability by integrating local emergency service personnel into task forces
             that were to be trained and equipped to respond to emergencies, including
             WMD events. When the system was initially developed, only a few states had
             a limited capability to perform this mission, and no resources were available
             for a national response.

             In 1992, FEMA published the Federal Response Plan (FRP) that classified the
             federal government's response to disasters into 12 Emergency Support
             Functions, including Urban Search and Rescue for which FEMA had primary
             responsibility.

             FEMA never intended to have an in-house rescue capability of its own, and
             recognized that the best sources for urban search and rescue knowledge and
             skills resided at the State and local levels. Therefore, the National US&R
             Response System was established as a federal—state—local partnership,
             based on Memoranda of Agreement and Individual Cooperative Agreements
             between FEMA and the Sponsoring Organizations for the task forces. DHS'
             December 2004 National Response Plan superseded the FRP, included three
             additional Emergency Support Functions, and specified that FEMA may
             activate the National US&R Response System for any actual or potential
             "Incident of National Significance."

             Currently, 28 task forces operate in 19 States with the heaviest concentration
             of 8 task forces in California (see Appendix B). Task force responses are
             intended to be primarily for rescues from structural collapse, but also include
             other activities such as the recovery of personnel lost in the Columbia Shuttle
             disaster. From its inception to the present, the task forces have responded to
             over 20 events, usually in a standby status for such events as the Olympics,
             and reconnaissance for possible victims in collapsed structures from
             hurricanes. The Oklahoma City Federal Building bombing in 1995, the attacks
             on the World Trade Center and Pentagon in 2001, and Hurricane Katrina in
             2005 represent the most intensive task force responses to date. Twenty-six of
             the 28 task forces responded to the attacks of September 11, 2001, and all 28
             task forces deployed to the Gulf Coast area in the aftermath of Hurricane
             Katrina in August 2005.

             The Robert T. Stafford Disaster Relief and Emergency Assistance Act, as
             amended by Public Law 106-390, authorizes task force activities. The


              Audit of the National Urban Search and Rescue Response System

                                         Page 2
                              strategic plans for DHS and FEMA contain other criteria relevant to the
                              US&R System as follows:

                              •     The DHS Strategic Plan for 2004 includes an objective to provide robust
                                    all-hazard response capability from different resources, including urban
                                    search and rescue. Further, according to the plan, integrated logistical
                                    support will ensure a rapid and effective response and coordination
                                    consistent with national incident command protocols.

                              •     According to the FEMA Strategic Plan for FYs 2003 – 2008, emergency
                                    responders of all kinds must increase their capability if the country is to
                                    deal effectively with terrorist attacks. The plan recognizes that FEMA is
                                    specifically responsible for ensuring an effective response to the use of
                                    weapons of mass destruction on United States soil.

                              •     The 2004 DHS Strategic Plan includes risk management as an integral part
                                    of its implementation. The Plan recognizes the need for ongoing risk
                                    management assessment, and directing resources toward those priority
                                    threats and vulnerabilities based on potential consequences and likelihood
                                    of an event occurrence.

Results of Audit

           Attainment of US&R System Objectives and Standards
                              The seven task forces we reviewed improved their operational, logistical, and
                              management readiness posture during FY 2003 and FY 2004, but shortfalls in
                              achieving US&R System objectives and standards continued to exist. Notable
                              improvements included task forces' acquisition of WMD training and
                              equipment. For many grant agreement goals and US&R System standards,
                              however, systemic readiness deficiencies continue to exist, especially in the
                              operational and logistical areas.1

                              Operational Readiness. Six of the seven task forces fell below 50 percent of
                              US&R System standards for operational readiness established by FEMA.
                              FEMA defined operational readiness as the availability of a rostered
                              complement of completely trained, exercised, qualified personnel and disaster
                              search canines, immediately ready to deploy. A full complement for a task
                              force roster consisted of 210 members with 19 different specialties and
                              12 canines. Although a task force team deployed to a major structural collapse
                              normally consisted of 70 members and 4 canines, a full 210-member roster
                              was intended to provide depth, in recognition that not all members would be
                              immediately available for deployment. Furthermore, a full 210-member roster

1
    We considered an issue to be a systemic deficiency if it existed at five or more of the seven task forces audited.

                                  Audit of the National Urban Search and Rescue Response System

                                                             Page 3
becomes an increasingly essential component of operational readiness in order
to achieve FEMA's goal of maintaining a second task force response
capability during a single event.

Using the US&R System standards, five of the seven task forces we reviewed
rated themselves below 50 percent for operational readiness, including one
task force that rated itself at 13 percent. We confirmed these results and, in
addition, identified a sixth task force that was below 50 percent after
adjustments were made for rating and data errors. Following are examples of
deficiencies in this category:

•     Task force grant awards required multi-day, full-scale, operational
      readiness exercises that simulated all phases of a disaster or a national
      incident as an objective to be achieved prior to June 1, 2004. Task forces
      either did not conduct the exercises or did not require an adequate number
      of team members to participate. Task force staff acknowledged the
      importance of conducting these exercises so that members can practice
      together as a team on activities they may not perform on a day-to-day
      basis, thereby becoming familiar with the equipment they may need to use
      on a deployment.

•     Some task force members had not received all the training required by
      FEMA, including WMD training and functional or specialty training based
      on the member's position description. For example, while logistics
      specialists are required to attend functional or specialty training, six of the
      seven teams audited either had no members or an inadequate number of
      staff who had attended the requisite course. Specialty training is usually
      provided directly by FEMA through a private contractor.

•     To be completely qualified and deployable, task force members must meet
      all the requirements for deployment, including meeting all training
      requirements, satisfying medical evaluation and immunization
      requirements, being available, e.g. not on vacation, injury, etc. During site
      visits to the seven task forces, we determined that: (1) mandatory training
      requirements were not met; (2) medical and immunization requirements
      were either not met or the information was not available to the auditors
      due to confidentiality concerns; and (3) member availability information
      was lacking because the task force did not continuously update the
      members’ status as to vacation, injury, etc. task force managers use their
      discretion when deploying members who are not rated as completely
      qualified.

•     Rostered canines did not meet all of the US&R System requirements, were
      not available in adequate numbers, and were not immediately available for
      deployment. Some canines had not completed Type II training; did not


    Audit of the National Urban Search and Rescue Response System

                               Page 4
                                have medical certifications or records supporting their deployability; and
                                were not available for exclusive task force use.

                          Logistical Readiness. Based on US&R System standards, five of the seven
                          task forces visited rated themselves 70 percent or below for logistical
                          readiness in their June 2004 self-evaluations. We concluded that all seven task
                          forces should be rated below 70 percent but we could not confirm the exact
                          logistical readiness for the other two task forces. FEMA defines logistical
                          readiness as the availability of a complete equipment cache2 as well as other
                          logistic resources needed to support immediate deployment. Following are
                          examples of deficiencies in this category:

                          •     None of these task forces performed comprehensive physical inventories
                                or maintained perpetual inventory records of cache equipment to confirm
                                the amount of inventory on-hand at the self-evaluation reporting date. The
                                task forces generally based their evaluations on piecemeal inventories
                                taken at various times of the year and did not always apply correct
                                accounting procedures when reporting deficiencies. For example, one task
                                force did not count a line item as deficient if one or more of the quantity
                                required was on-hand even though the required quantity was not. After
                                conducting partial inventories, staff merely adjusted the Cache
                                Management Inventory System database to reflect the on-hand quantity,
                                but the historical records did not reflect what and why adjustments were
                                made or what the on-hand quantity should be.

                          •     All but one of the task forces visited were significantly deficient in their
                                historical record keeping to show that required maintenance of major
                                equipment items was performed on a regular basis, ensuring an ongoing
                                state of readiness. Further, the task forces had not performed the required
                                maintenance, per the equipment manufacturer, for some of the items. In
                                order for a cache equipment item to be ready for deployment, it must be
                                properly maintained. Based on our observations, at least six of the seven
                                audited task forces did not meet US&R System standards for a minimum
                                rating in this category.



        US&R System Oversight, Funding, and Staffing

                          From FY 2002 to FY 2004, Congress appropriated $152.4 million for US&R
                          System task force preparedness, a significant increase over prior years'
                          funding, (See Chart 1). The funding increase was intended to improve the task
                          forces’ capability to respond to emergency events, including enhancing WMD
                          equipment and training. After providing funding to improve the WMD
2
 An equipment cache is a compliment of tool, equipment, and supplies stored in a designated location for deployment
with a task force.

                              Audit of the National Urban Search and Rescue Response System

                                                         Page 5
capability, Congress appropriated $30 million in FY 2005 to maintain the task
force readiness. During the period from FY 2002 to FY 2004, the US&R
System program managers within FEMA did not adequately monitor or
oversee the task forces' compliance with preparedness grant requirements, or
determine whether the task forces achieved US&R System readiness
objectives and standards. Additionally, FEMA did not perform an independent
financial assessment of task force funding requirements before establishing
grant agreement goals, nor did they request the task forces to determine
whether grant awards were adequate to meet the readiness objectives and
standards. Finally, DHS and FEMA did not authorize the staffing increases
needed to accomplish the increased System responsibilities subsequent to FY
2001.

                                        Chart 1

                            US&R Preparedness Funding

                          $80                                  $65
                                                    $61
                          $60             $43
               In millions $40                                        $30
                          $20    $10
                           $0
                                 2001    2002      2003        2004   2005
                                                Fiscal Years




Oversight of Task Force Preparedness

From FY 2002 to FY 2004, FEMA provided only minimal oversight of task
force preparedness to assure that grant agreement requirements and US&R
System readiness objectives and standards were met. Prior to June 2004,
FEMA did not perform any on-site operational reviews and made only one
on-site task force grant financial review. Instead, FEMA usually only did
summary desk reviews of information provided by the task forces, and did not
examine in detail or follow up on information in submitted grant reports from
the task forces, including financial status reports and performance reports.
These reports provide financial data and other performance indicators as to
task force progress toward meeting grant agreement goals.

On-site Reviews. FEMA had not scheduled any on-site operational readiness
reviews and had scheduled only five on-site financial compliance reviews in
FY 2004. These reviews could have provided FEMA a means to
independently verify grant compliance, as well as to assess ongoing readiness.
Task force staff often did not understand all grant requirements. Such issues
may have been resolved during on-site reviews. For example, task force
managers had conflicting understandings of grant terms and conditions
terminology, such as the goal for conducting at least one multi-day full-scale
 Audit of the National Urban Search and Rescue Response System

                             Page 6
operational readiness exercise. Because task force managers interpreted this
goal in various ways, most did not satisfactorily complete the goal by US&R
System standards. FEMA planned to implement an on-site FEMA/Peer
Evaluation program during the latter part of FY 2004 during which all task
forces would be visited over a 2-year period of time. This was delayed in part
due to the response requirements for the four Florida hurricanes during the
summer of FY 2004. Further, FEMA planned to provide the task forces at
least 30 days advance notice prior to on-site reviews.

Financial Status Reports. FEMA minimally reviewed summary information
on the financial status reports due quarterly per the grant agreement, and did
not follow up on "red flags" in the Financial Status Reports. The Financial
status report provides the current and cumulative status of federal cash
drawdowns and expenditures for the grant period. A lack of drawdowns or
expenditures can be indicative of inadequate progress toward meeting the
grant agreement goals and the need for a follow-up or site visit. Financial "red
flags" in the financial status reports for US&R System delays included:
(1) time lapses of five or more months between grant award dates and the first
drawdowns, (2) performance period time extensions, (3) significant delays in
the start of performance activities from the date funds became available, and
(4) low expenditure levels for performance periods in effect for over one year.

Performance Reports. FEMA had not standardized a performance report
format and consequently, with limited human resources, was unable to
efficiently and effectively review and recognize issues contained in different
task force report presentations. These semi-annual reports provide the current
status of grant goal achievements, programmatic issues encountered by the
task forces, and other information relevant to the US&R System mission.
FEMA identified the lack of detailed review of performance reports as a major
US&R System deficiency, saying the best they could do currently is
spot-check for compliance. For two of the seven task forces reviewed, no
records were available to support that performance reports were ever
prepared, or any indication that FEMA followed up on this matter.

US&R System and Task Force Funding Needs

FEMA did not perform comprehensive financial assessments of costs required
to achieve overall US&R System goals or detailed analyses of the task forces’
funding needs to achieve grant agreement goals. The process of performing an
in-depth analysis of task force funding needs would have clarified within
FEMA, as well as with the task forces, a clearer understanding as to the
expectations for each goal and the costs to achieve each goal within each task
force.

Need for Additional Task Force Funding to Meet Grant Agreement Goals.
FEMA allocated approximately 40 percent of the US&R System's funds to

 Audit of the National Urban Search and Rescue Response System

                            Page 7
                            task force grants, and awarded equal amounts to each task force to achieve the
                            same goals without analyzing individual task force readiness status and cost
                            structure for the FY 2002 through FY 2004 period. For example, some task
                            forces had larger equipment caches than others, but all task forces received the
                            same allocation for equipment purchases. Further, additional financial
                            requirements, e.g., to perform more training, were often placed on the task
                            forces subsequent to the grant award. Because FEMA provided equal amounts
                            of grant funds and added requirements after grant awards, the amounts did not
                            always reflect US&R System needs or provide the financial ability for task
                            forces to meet additional US&R System requirements.

                            We did not perform a detailed analysis of the estimated funding required to
                            meet US&R System standards. However, we reviewed selected categories of
                            estimated costs in relation to the grant award amounts, such as task force
                            staffing, and concluded that the grant award amounts were not sufficient for
                            the task force to meet US&R System standards.3

                            Cost information obtained from the audited task forces showed a wide
                            variance in funding requirements for specific categories. For example, one
                            task force estimated about $281,000 would be required annually to staff the
                            four administrative positions recommended by FEMA while another task
                            force estimated about $471,000 annually. Previous grant awards only
                            allocated an average of about $250,000 for these positions during the entire
                            grant performance period -- usually about 18 months. Task force coordinators
                            also identified other categories of annual costs, such as full-scale exercises,
                            were not adequately funded. The funds allocated for full-scale exercises
                            varied significantly among the task forces.

                            Need to Clarify US&R System Goals. FEMA and task force leadership did
                            not always have a clear understanding of US&R System goals. For example,
                            FEMA retained about $49 million during FY 2003 and FY 2004, or about
                            39 percent of the total funding appropriated for the US&R System, to provide
                            each task force with a second equipment cache conceptually for a second
                            response capability. Some task force leaders believed this would require them
                            to field two teams concurrently, while others believed their capability would
                            need to be consecutive, deploying only one team in the field at a time. The
                            difference in these two options represents a large difference to some of the
                            task forces in their ability to staff the teams without adversely affecting the
                            response capabilities of the members' home fire and rescue stations. FEMA
                            acknowledged that there was some uncertainty as to the intent of the second
                            cache, partially due to changes in FEMA senior management and also due to
                            the reaction after the September 11, 2001, tragedies that additional response
                            capability was needed without clearly defining how it should be achieved. The


3
    US&R System grants awarded to the 28 task forces do not contain any cost-sharing provisions.

                               Audit of the National Urban Search and Rescue Response System

                                                          Page 8
US&R System may have received more benefit from these funds if the goals
had been more clearly defined.

US&R System Staffing

DHS and FEMA did not provide proportionate US&R System staffing
increases to adequately manage increased System activities subsequent to
FY 2001; FEMA staff levels remained at the pre-FY 2001 level. For the
US&R System staff, this consisted of a total of eight persons including
administrative staff, who were responsible for administering the preparedness
activities as well as responding to emergency events. While this level was
inadequate in general, it reached a crisis point during multiple responses,
especially the four Florida hurricanes in 2004 and Hurricanes Katrina, Rita,
and Wilma in 2005. While staff at various task forces understood that the
organization managing the US&R System in FEMA was understaffed, they
expressed frustration that they did not receive timely, consistent, or adequate
feedback on preparedness issues. US&R System managers proposed to senior
FEMA management a doubling of staff to 16 persons for adequate
management of its many activities.

Staffing History. Before the US&R System’s March 2003 transition into DHS,
the FEMA US&R Section Chief's legacy supervisor (U.S. Fire Administrator)
said that the US&R System staff was authorized to double in size from 8 to 16
positions, but no increase in staffing occurred. Subsequently, along with the
over $60 million Congressional appropriation in FY 2003, Congress
authorized funding for eight additional full-time positions for 1 year, but
FEMA was unable to fill those positions. Thus, the staffing level for FEMA’s
US&R System has not increased to keep pace with US&R System activity
increases that have occurred since FY 2002. Therefore, FEMA has been
unable to oversee the System to ensure that the goals of "robust all-hazard
response capability," and the capability to deal "effectively with terrorist
attacks," as stated in the FEMA and DHS Strategic Plans, were achieved.

Composition of Staff. The US&R System's full-time staff consisted of a
Section Chief, five program specialists, and two administrative positions. Two
of the program specialist positions were not consistently filled due to extended
illness of one specialist and vacancies not being filled timely. Consequently,
to compensate for the unproductive positions, FEMA added four part-time
contract personnel to assist in FY 2004 US&R System activities. Thus,
FEMA’s FY 2004 full-time staffing level remained at the pre-FY 2002 level
and FEMA did not authorize additional full-time positions. That level was
minimally sufficient for responding to emergencies and for setting basic task
force guidelines but was insufficient to adequately monitor, analyze, and
follow-up on task force progress in meeting US&R System objectives and
standards for an optimal level of response readiness.


 Audit of the National Urban Search and Rescue Response System

                            Page 9
           The US&R Section Chief has proposed doubling the present staff from 8 to
           16. Unlike the present structure of the staff “wearing a number of hats,” this
           proposal contained specialty positions for staff having program management
           responsibilities, and those having response operations responsibilities.

Reasons for Task Forces Not Achieving Objectives or Standards

           The task forces did not achieve System objectives and standards because of:
           (1) task force delays in hiring a full complement of administrative staff as
           recommended by FEMA; (2) budget constraints; and (3) US&R System
           understaffing within FEMA. These conditions negatively impacted the overall
           task force performance in assuring achievement of all grant goals and System
           standards at the levels defined by FEMA.

           Delays in Hiring Full-Time Staff to Administer Day-to Day Activities. Six of
           the seven task forces audited did not hire sufficient staff to manage their day-
           to-day operations, which hindered their ability to achieve their grant goals and
           standards. Bureaucratic delays and budget considerations were primary factors
           in the staff shortages. FEMA included in the grant goals a recommendation
           for each task force to hire, a minimum, four administrative personnel: (1) Task
           Force Coordinator; (2) Administrative Assistant; (3) Training Coordinator,
           and (4) Logistician (Cache Manager). Each of the task forces is sponsored by
           a state agency or local public safety agency (sponsoring organization) that is
           responsible for the administrative management of their respective task forces,
           including personnel hiring. The sponsoring organization applied their normal
           agency rules in hiring that includes such activities as authorizations, funding
           obligations, qualification reviews, interviews, etc. that contributed to some
           hiring delays. In addition, task force leadership decided to defer the hiring of
           some administrative staff to leave more grant funds for some of the remaining
           goals. Finally, task forces were challenged in recruiting staff because they
           could not guarantee long-term employment to prospective applicants.

           Budget Constraints. Task force leaders were reluctant to spend grant funds to
           fully achieve goals due to insufficient grant funds to cover all of the grant
           goals, and uncertainty over the amount of future funding. Task force
           coordinators for four of the seven task forces that we visited estimated annual
           funding needs greater than the current grant awards. The estimates ranged
           from about $1.1 million to $2.0 million, well above the FY 2004 funding of
           about $950,000. While the remaining three teams had not met their grant
           agreement goals, they had not analyzed their annual funding needs. In some
           cases, task forces reduced costs by performing modified versions of some
           grant agreement goals, such as hiring fewer administrative staff than FEMA
           recommended.

           US&R System Staff Shortage in FEMA. Due to delays caused by continuing
           resolutions during FY 2003, FEMA did not hire any temporary staff

            Audit of the National Urban Search and Rescue Response System

                                      Page 10
          authorized by Congress, and no subsequent new full-time positions were
          authorized or filled for the US&R System. After FEMA received authority
          and funding allocations from DHS to hire permanent personnel, the first
          priority of FEMA's Response Division Director was to fill vacancies instead
          of to create new positions. As a consequence, the US&R System staff was
          tasked with the responsibility beginning in FY 2002 of ensuring WMD
          preparedness for task forces and managing significant increases of grant
          funds, but they did not receive additional staff to assist in these activities.
          The perpetual staffing shortage became most critical when the US&R System
          staff was tasked with response requirements and had to delay US&R System
          planned activities such as on-site operational reviews. During the summer of
          2004, the US&R System and its staff responded to four hurricanes, essentially
          one after the other. All full-time US&R System staff, including the Section
          Chief, was away from the office over 2 months performing emergency
          response functions, while their program management and preparedness
          responsibilities were essentially put on hold.

Conclusions

          The task forces fell short of the grant goals and standards set by FEMA due
          primarily to their own administrative staff shortages and budget constraints, as
          well as FEMA’s inability to provide adequate oversight of task force
          activities. This resulted in a lower than optimal level of readiness for the task
          forces, especially in the operational and logistical readiness areas. Based on
          the geographical diversity of the task forces that we visited, as well as other
          factors, such as significant variances in expenditures, the deficiencies noted in
          this report appear systemic and need FEMA's attention. Although the task
          forces have improved their state of readiness in some areas, the US&R System
          has not collectively attained the level of response capability envisioned in the
          strategic plans for 2003 and 2004. Further, FEMA has not performed a
          comprehensive financial assessment of task force costs structures and
          readiness status that could be used in prioritizing US&R System goals when
          funding is unavailable or inadequate. FEMA needs to assess and prioritize the
          US&R System in relation to other programs and provide sufficient staffing
          resources to assure that the task forces achieve grant agreement requirements
          and meet US&R System objectives and standards.

          Discussion with Management. The President declared Hurricanes Katrina,
          Rita, and Wilma as major disaster events between August 29, 2005 and
          October 24, 2005. As a result, FEMA was engaged in Gulf Coast response
          operations and unavailable to discuss our September 2005 discussion draft
          report until mid-December 2005. In response to that draft report, FEMA’s
          Response Division opted to provide written responses and on January 25,
          2006, commented on several areas of concern raised in our report.



              Audit of the National Urban Search and Rescue Response System

                                        Page 11
                             The Response Division indicated it has (i) worked with the task forces to
                             bolster their administrative staffs, (ii) identified a standardized management
                             structure over the last several years, and (iii) identified and scheduled third
                             party training for task force staff. While these efforts are commendable, they
                             do not obviate the fact that additional improvement is needed since six of the
                             seven task forces visited during our fieldwork were short of the staff needed to
                             manage day-to-day operations and assure achievement of System goals and
                             objectives. Further, the Response Division’s comments do not indicate that
                             administrative staffing shortfalls within the task forces has been remedied.

                             The Response Division also commented that its US&R System Office has
                             worked with the US&R Operations Group4 on developing an operational
                             readiness evaluation process to assess operations, logistics, and program
                             management readiness. The first phase of this process requires task force
                             self-evaluation and the second phase involves on-site visits by several
                             members of US&R System staff and task force peer evaluators. Once again,
                             while these efforts may have a positive effect, we determined that six of seven
                             task forces fell below 50 percent of the US&R System standards for
                             operational readiness, and five of the seven task forces were rated 70 percent
                             or below for logistical readiness. Further, we confirmed that self-evaluations
                             were not always reliable and the FEMA/Peer Evaluation phase had been
                             delayed.

                             In terms of operational readiness, we reported task force shortcomings
                             regarding achievement of the requirements for rostered canines. FEMA’s
                             Response Division comments indicated that a comprehensive canine
                             evaluation and testing process has resulted in significant advancement in the
                             number of handlers and canines achieving certification. However, those
                             comments did not specify what advancements have been made.

           Recommendations

                             We recommend that the Director, FEMA:

                             (1) Coordinate with each task force and their sponsoring organizations to
                                 ensure that they have sufficient full-time staff to administer day-to-day
                                 activities and to achieve and maintain System objectives and standards;

                             (2) Obtain for each task force a detailed comprehensive analysis of grant
                                 funding needed to complete and maintain present and future grant goals
                                 and System standards; and

                             (3) Develop and implement a plan for effective oversight of the US&R
                                 System, including on-site operational reviews.

4
    All task force members – 12 functional work groups and 4 task force leaders’ representatives.

                               Audit of the National Urban Search and Rescue Response System

                                                           Page 12
Management Comments and OIG Analysis

          Management Comments: On June 20, 2006, FEMA’s Response Division
          Director responded to our May 25, 2006 draft report and indicated that the
          Division provided comments to our September 2005 discussion draft report on
          January 25, 2006 and that it had no further comments on the May 2006 draft
          report or recommendations.

          Appendix C provides a complete text of the Division Director’s June 2006
          response to the draft report and the Deputy Division Director’s January 2006
          response to our earlier discussion draft report.

          OIG Comments and Analysis: The recommendations above were intended
          to highlight the actions needed to successfully achieve US&R System
          standards, goals, and objectives. FEMA’s Response Division comments
          recognize our general conclusion that the fundamental obstacles to achieving
          US&R System requirements are funding and staffing constraints. Because
          these obstacles were beyond the Response Division’s ability to remedy, we
          directed the recommendations in our final draft report to the FEMA Director.
          The FEMA Director did not directly respond to the findings and
          recommendations in this report and the Response Division’s comments
          merely upheld its earlier comments. More importantly, because the Response
          Division’s comments neither indicated FEMA’s concurrence or
          non-concurrence with the recommendations nor provided any specific
          information regarding actions planned or taken to effectively implement our
          recommendations, we consider the three recommendations unresolved.




           Audit of the National Urban Search and Rescue Response System

                                     Page 13
Appendix A
Objective, Scope, and Methodology

                   The objective of our audit was to determine to what extent DHS had achieved
                   the National Urban Search and Rescue Response System's preparedness goals
                   after increased levels of funding were made available for the System in a post-
                   September 11, 2001, environment.

                   We reviewed financial and program records and interviewed personnel at
                   FEMA Headquarters and at selected task force sites. The seven task forces
                   identified in Appendix B were judgmentally selected for site audits based on
                   multiple factors, including geographical dispersion, amount of drawdowns,
                   the number of issues reported in the after action report from the 9-11 attacks,
                   and program referrals. The sample was intended to provide reasonable
                   assurance that the results would be representative of the System as a whole. At
                   the task forces, we interviewed task force management and other team
                   members, reviewed record keeping systems and management reports, and
                   performed judgmental samples of cache inventory, training, and management
                   records to determine whether goals were accomplished. Throughout the audit,
                   the OIG worked closely with US&R program managers.

                   Audit work was conducted between May 2004 and September 2004 and was
                   performed under the authority of the Inspector General Act of 1978, as
                   amended, and according to Government Auditing Standards issued by the
                   Comptroller General of the United States. Major OIG contributors to the audit
                   are identified in Appendix E.




                     Audit of the National Urban Search and Rescue Response System

                                               Page 14
Appendix B
National Urban Search and Rescue Response System task forces




                                   Sites
                 State                               Task Force Sponsoring Agency
                                  Audited

                 Arizona                                       Phoenix Fire Department
                California                                    L.A. City Fire Department
                California                                   L.A. County Fire Department
                California                               Menlo Park Fire Protection District
                California                                   Oakland Fire Services Agency
                California                                   Orange County Fire Authority
                California                                City of Riverside Fire Department
                California                                   Sacramento Fire Department
                California            *                      San Diego Fire Department
                Colorado                                       Denver Fire Department
                 Florida                                       Metro-Dade Fire / Rescue
                 Florida              *             City of Miami Fire and Rescue Department
                 Indiana                             Marion County Department of Public Safety
                Maryland                                  Montgomery County Fire / Rescue
              Massachusetts                        City of Beverly Emergency Management Agency
                 Missouri                                     Boone County Fire District
                Nebraska              *                   City of Lincoln Fire Department
                 Nevada               *                   Clark County Fire Department
               New Mexico             *           State of New Mexico Department of Public Safety
                New York                               NYC Office of Emergency Management
                  Ohio                             Miami Valley Emergency Management Authority
               Pennsylvania                              City of Harrisburg Fire Department
                Tennessee                                 City of Memphis Fire Department
                  Texas                                         Texas A&M University
                  Utah                                 Salt Lake City / County Fire Department
                Virginia              *             Fairfax County Fire and Rescue Department
                 Virginia                                  Virginia Beach Fire Department
               Washington             *         Pierce County Emergency Management Department




                         Audit of the National Urban Search and Rescue Response System

                                                   Page 15
Appendix C
Management’s Response to the Draft Report




                     Audit of the National Urban Search and Rescue Response System

                                               Page 16
Appendix C
Management’s Response to the Draft Report




                     Audit of the National Urban Search and Rescue Response System

                                               Page 17
Appendix C
Management’s Response to the Draft Report




                     Audit of the National Urban Search and Rescue Response System

                                               Page 18
Appendix D
Major Contributors to this Report

                    Robert J. Lastrico, Audit Division Director
                    Jack Lankford, Supervisory Auditor
                    Raul Adrian, Auditor
                    Renee Gradin, Auditor
                    Paulette Solomon, Auditor




                     Audit of the National Urban Search and Rescue Response System

                                               Page 19
Appendix E
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Executive Secretariat
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Under Secretary, Management
                      Under Secretary, Preparedness
                      Under Secretary, Federal Emergency Management
                      Chief Financial Officer
                      Chief Information Officer
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Policy
                      Assistant Secretary for Legislative and Intergovernmental Affairs
                      Chief Security Officer
                      DHS GAO/OIG Liaison Office

                      Federal Emergency Management Agency

                      Director
                      OIG Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Bureau
                      DHS OIG Budget Examiner

                      Congress

                      Committee on Homeland Security and Governmental Affairs
                      United States Senate

                      Committee on Homeland Security
                      United States House of Representatives




                       Audit of the National Urban Search and Rescue Response System

                                                 Page 20
Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528, fax the complaint to (202) 254-4292; or email
DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
and caller.
